           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ACCOUNTABILITY OVER
            DUPLICATE
     PAYMENTS, EQUIPMENT AND
            RECORDS IN
   THE HURRICANE RECOVERY AREA


   April 2007     A-06-06-26137




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
MEMORANDUM

Date:      April 23, 2007                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accountability over Duplicate Payments, Equipment and Records in the Hurricane
           Recovery Area (A-06-06-26137)


           OBJECTIVE
           Our objectives were to review the process for identifying and collecting overpayments
           that resulted from duplicate payments issued during the storm recovery efforts and
           determine whether the Social Security Administration (SSA) adequately accounted for
           and safeguarded equipment and records disposed of after the storms.

           BACKGROUND
           In the aftermath of the Gulf Coast hurricanes, SSA responded to its beneficiaries’
           needs by issuing immediate payments to the individuals, as appropriate. From
           August 31 through October 31, 2005, SSA issued 110,512 third-party drafts (TPD)
           nationwide (see Appendix C for additional information).

           Because of the widespread damage and resultant business closings, mail delivery
           problems, and relocation of recipients, SSA modified its procedures for issuing
           immediate payments. Those recipients who did not receive their benefits, by mail or
           electronic funds transfer, were instructed to go to any open SSA office to obtain a TPD
           (check). Immediate payments under Old-Age, Survivors and Disability Insurance
           (OASDI) and emergency payments issued for Supplemental Security Income (SSI)
           were issued through the Third Party Payment system (TPPS). TPPS is a register of
           TPDs issued to vendors for goods and services, to SSA employees for reimbursement
           of payments and to beneficiaries for Programmatic Emergency Advance and Immediate
           Payments.

           In November 2005, SSA began to reconcile all TPDs to ensure they were accounted for
           and correctly recorded in TPPS and that TPPS records matched the Social Security
           numbers (SSN) and dollar amounts recorded in SSA’s systems and records (Master
           Beneficiary Record and/or Supplemental Security Record).
Page 2 -The Commissioner

Additionally, numerous SSA facilities, records, and computer equipment in Regions IV
and VI were damaged by the floodwaters or contaminated and had to be destroyed.
SSA worked with General Services Administration contractors in the destruction and
disposal of 247 damaged computers and approximately 47,650 claimant files.

RESULTS OF REVIEW
SSA was proactive in ensuring its recipients’ benefits continued uninterrupted and was
diligent in processing immediate payments. During its November 2006 reconciliation,
SSA identified overpayments that were not initially detected because of input errors.
Additionally, SSA generally followed policies and procedures in disposing of equipment
and records. However, we did have some concerns about the contracting process and
final destruction of records in Region VI (see Appendix B for information on the Scope
and Methodology).

OVERPAYMENTS DETECTED DURING THIRD-PARTY DRAFT RECONCILIATION

SSA identified 1,597 immediate payments totaling $1,231,848 that were not entered
properly, which resulted in undetected overpayments. SSA mailed overpayment
notices to OASDI beneficiaries and plans to collect overpayments made under the SSI
program by collecting them from future benefits.

After the Gulf Coast hurricanes, SSA issued immediate payments as appropriate. In
cases where backlogs existed because of the volume of immediate payments being
issued, many offices could not keep up with TPPS data entry. In these instances, the
TPDs were manually recorded and sent to SSA Headquarters for input.

In November 2006, SSA matched its TPPS records against SSA records and
databases. The reconciliation indicated there were overpayments not detected
because of input error, such as dollar amounts or SSNs not matching between SSA’s
databases. The errors were detected, and corrections were made as necessary.

SSA reconciled immediate payments and reported that, as a part of its reconciliation, all
immediate payments were recorded properly on the TPPS. To recover immediate
payments that resulted in overpayments, SSA mailed overpayment notices to OASDI
beneficiaries and is reducing future payments for SSI recipients.

SAFEGUARDING THE DESTRUCTION OF EQUIPMENT

SSA experienced significant equipment damage in the Gulfport and Moss Point,
Mississippi areas (Region IV) and the New Orleans area (Region VI). Region IV
reported 96 computers were damaged. The hard drives were removed from these
computers, and they were destroyed in the presence of an SSA employee. All of the
items were counted as they were hauled away.
Page 3 -The Commissioner

Region VI reported that all of the 151 personal computers in the New Orleans
Downtown, New Orleans East, and Kenner, Louisiana, offices were either exposed to
rain or were underwater for several weeks. Representatives from the General Services
Administration and Department of Health and Human Services, Federal Occupational
Health Service, stated the contents of the three offices required complete disposal due
to exposure to contaminated water, mold, and humidity.

SSA contracted with UNICOR/Federal Prison Industries to destroy damaged
computers. An SSA Manager was present for the destruction and/or removal and
ensured proper procedures were followed. The damaged equipment was removed by
UNICOR/Federal Prison Industries for its destruction and recycling program. All items
were shipped in locked trailers to UNICOR facilities in Texarkana, Texas.

Additionally, per SSA procedures, both Regions used Government-approved software
to remove all data from the hard drives before they were crushed. UNICOR provided a
Certificate of Recycling, stating that it warranties the complete disposition of the
material.




                   Figure 1: Inside the Kenner, Louisiana, District Office

After the hurricanes, SSA purchased $761,263 in computer equipment to replace
damaged computer workstations, servers, and printers.

SAFEGUARDING OF RECORDS DESTRUCTION

The floodwaters significantly damaged files in both Regions. Because the records
either were no longer necessary or beyond recovery, SSA obtained approval from the
National Archives and Records Administration to destroy them. In Region IV, SSA
contracted with Shred-It to destroy and dispose of documents in the Gulfport and Moss
Point, Mississippi offices. In Region VI, SSA contracted with Iron Mountain (through an
existing General Services Administration contract) in the New Orleans, Louisiana,
Page 4 -The Commissioner

offices. The contractors provided Certificates of Destruction upon completion. To
ensure the confidentiality of the records, background checks were conducted on all Iron
Mountain personnel involved in the document destruction process. However, we
learned that, while background checks were conducted on Iron Mountain employees,
background checks were not conducted on the employees of American Recycling or
Shred-It, who also were involved with the pick-up and destruction of the records in
Region VI.

SSA’s field office in Moss Point, Mississippi, reported 14,400 files damaged while the
Gulfport, Mississippi, field office reported approximately 250 files damaged, all of which
were deemed 100 percent destroyed. It should be noted that, in the Gulfport,
Mississippi office, the damage to the active records was minimal because SSA had
implemented electronic claims processing. The files were shredded on-site and
witnessed by an SSA manager.




            Figure 2: Inside the New Orleans, Louisiana, Downtown District Office

In the New Orleans area, about 33,000 files at the 3 locations were damaged beyond
recovery. To protect the integrity of the document destruction, employees of the
contracted vendor underwent background checks and picked up the records in the
presence of SSA personnel. However, we found the documents were ultimately
destroyed by a third-party whose employees did not undergo the required background
checks, and it appears SSA was not aware the documents were transferred to a
third-party for destruction.

Contract proposals received from Iron Mountain stated the Louisiana documents (which
were already boxed) would be removed and taken to an Iron Mountain facility for
destruction. However, we learned that the records were transferred to two additional
vendors, American Recycling and Shred-It. American Recycling transferred the records
to Shred-It, who ultimately destroyed the documents.
Page 5 -The Commissioner

According to our interviews with SSA personnel, Iron Mountain did not fully disclose that
the documents would be transferred multiple times before they were destroyed,
compromising the integrity and confidentiality of the records. Based on the contract,
Iron Mountain was responsible for ensuring the destruction of the documents.
However, based on our interviews, while SSA employees were present when the
documents were picked up, neither SSA employees nor approved personnel were
                                                                                     1
present to verify the final destruction of those records, as required by SSA policy.

CONCLUSION AND RECOMMENDATIONS
SSA is to be commended for its efforts in ensuring an uninterrupted flow of benefits to
its beneficiaries. Our review noted that SSA was diligent in processing and verifying the
immediate payments. However, its review process should be documented and
incorporated as part of any future disaster recovery efforts. Additionally, SSA generally
followed policies and procedures in the disposition of equipment. Still, we have some
concerns over the contracting for the destruction of records. We recommend that SSA:

1. Document its process for identifying and reconciling duplicate immediate payments
   and incorporate these procedures in future disaster recovery efforts.

2. Ensure Agency policies and procedures are explicitly stated in contracts related to
   the disposal of records containing personally identifiable information.

3. Ensure that, when contracting with outside vendors, and personally identifiable
   information is involved, it is clear who will be performing the work.

4. Ensure that, when SSA records are to be destroyed, all contractor personnel
   involved have the requisite background checks performed and that approved
   personnel are present during the destruction.

AGENCY COMMENTS

SSA agreed with all our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                                  Patrick P. O’Carroll, Jr.




1
    See SSA Program Operations Manual System, DI 80701.060, Paper Retention.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Charts and Tables
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                        Appendix A

Acronyms
SSA    Social Security Administration
SSI    Supplemental Security Income
SSN    Social Security Number
TPD    Third-Party Draft
TPPS   Third Party Payment System
                                                                      Appendix B

Scope and Methodology
Our objectives were to evaluate the process for identifying and collecting overpayments
that resulted from duplicate payments issued during the storm recovery efforts and
determine whether the Social Security Administration (SSA) adequately accounted for
and safeguarded equipment and records disposed of after the storms.

In conducting our audit, we:

•   Reviewed SSA’s policies, procedures, and emergency messages concerning
    immediate payments issued. Additionally, we reviewed SSA’s control procedures
    and identified duplicate payments issued.

•   Reviewed SSA’s policies, procedures, and emergency messages concerning
    disposition of electronic equipment. Additionally, we reviewed SSA’s control
    procedures and safeguarding of assets during the disposition process.

•   Reviewed SSA’s policies, procedures, and emergency messages concerning the
    destruction of documents.

•   Examined SSA's policies and procedures temporarily amended to effectively and
    efficiently respond to the disaster.

•   Reviewed SSA’s reconciliation of Third-Party Drafts and Immediate Payments.

•   Interviewed Headquarters, Regional, and Field Office Personnel.

•   Made site visits to Dallas, Texas; Baltimore, Maryland; New Orleans, Louisiana; and
    Atlanta, Georgia to discuss reconciliation and payment procedures in the Regional
    and Field offices and Headquarters.

•   Visited Harahan, Louisiana, to interview a vendor contracted for document
    destruction.

We conducted our audit from May to December 2006 in accordance with generally
accepted government auditing standards.
                                                                               Appendix C

Charts and Tables
Beneficiaries and Recipients Impacted by the Hurricanes

                   Title II       Title XVI    Combined       Title II      Title XVI    Combined
Hurricane       Beneficiaries    Recipients      Total       Benefits      Payments        Total

Katrina             652,945       134,222        787,167     $531,259       $39,334       $570,593

Rita                150,405        24,735        175,140      127,649        10,316        137,965

Totals              803,350       158,957        962,307     $658,908       $49,650       $708,558

Note: Dollar amounts are in thousands (,000)

Hurricane Katrina Related Overpayments Detected after
the Reconciliation of Third-Party Drafts
                                                           Total             Dollar Amount
  Title II                                                 1,413                $1,164,116
  Title XVI/Supplemental Security Income                    184                         67,732
       Totals                                              1,597                 $1,231,848


Hurricane Katrina Related Third-Party Draft Totals for the
Period August 31, 2005 – October 31, 2005 (Split FY)

                             Total            Amount of     Total Drafts         Amount of
                          Number of            Drafts        Voided or        Drafts Voided or
                          Drafts Paid           Paid         Stopped              Stopped
  Retirement
  Survivors Income              35,903      $21,066,234            1,420              $922,153
  Disability Income             29,149       16,085,471            1,220               697,739
  Supplemental
  Security Income               45,089        21,174,412           1,360                649,372
  Emergency
  Advance Payment                 371           259,478               11               7,947
  Totals                      110,512       $58,585,595            4,011          $2,277,211
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM



Date:      April 5, 2007                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Accountability over Duplicate Payments,
           Equipment and Records in the Hurricane Recovery Area" (A-06-06-26137)—INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ACCOUNTABILITY OVER DUPLICATE PAYMENTS, EQUIPMENT AND
RECORDS IN THE HURRICANE RECOVERY AREA" (A-06-06-26137)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
the review found that: 1) we were proactive in ensuring recipients benefits continued
uninterrupted; 2) all immediate payments were recorded properly as part of our reconciliation
process and that we have taken action to recover any overpayments; and
3) we generally followed policies and procedures in disposing of equipment and records. Our
responses to the specific recommendations are provided below:

Recommendation 1

SSA should document its process for identifying and reconciling duplicate immediate payments
and incorporate these procedures in future disaster recovery efforts.

Response

We agree that the process for identifying and reconciling immediate payments issued by the
Third Party Payment System (TPPS) against programmatic systems should be incorporated into
future disaster recovery efforts. We will update any instructions regarding TPPS as appropriate.

Recommendation 2

SSA should ensure Agency policies and procedures are explicitly stated in contracts related to the
disposal of records containing personally identifiable information.

Response

We agree. We currently have standard language regarding security background checks that is to
be included in all contracts wherein the contractor will have access either to SSA facilities and/or
to Agency programmatic or sensitive information. We also have standard language governing
the protection of confidential information which is to be included in any contract wherein the
contractor will have access to confidential information furnished via the Government. Finally, in
October 2006, we finalized additional language that is to be used in all contracts wherein the
contractor will have access to personally identifiable information (PII). Contracting officers are
made aware of the need to use these clauses through instructions contained in the Social Security
Acquisition Handbook.

Contracting officers in the Office of Acquisition and Grants (OAG) and the Regional Contracting
Offices will review all acquisitions that involve the destruction or disposal of PII to ensure that
they contain the afore-mentioned contract language. In April 2007, we will issue a reminder to
all contracting officers about the applicability of these clauses to contracts that require the
disposal or destruction of records containing PII.


                                              D-2
Recommendation 3

SSA should ensure that, when contracting with outside vendors and personally identifiable
information is involved, it is clear who will be performing the work.

Response

We agree. Contractors are currently required to “flow-down” the clauses referenced in the
previous response to subcontractors. Contractor compliance with this requirement will address
the concerns raised in the report regarding access to PII by persons not cleared through the
Agency’s security process. Additionally, by April 2007, OAG will draft language to be included
in every solicitation and contract wherein the contractor will have access to PII that requires the
contractor to notify the Agency of any work involving PII that is subcontracted to another entity.
This language will direct the contractor to provide the contracting officer and the project officer
with pertinent information about the subcontractor and the personnel involved.

Recommendation 4

SSA should ensure that, when SSA records are to be destroyed, all contractor personnel involved
have the requisite background checks performed and that approved personnel are present during
the destruction.

Response

We agree. OAG will assist the requiring component (i.e., the project officer’s component) when
requested.




                                              D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-26137.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
